APPENDIX

1a
APPENDIX A
COURT OF APPEALS
OF MARYLAND
LLOYD ARBARD HARRIS
v.
STATE OF MARYLAND
Pet. Docket No. 393
September Term, 2019
February 28, 2020
Petition for writ of certiorari is denied.

2a
APPENDIX B
REPORTED
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
[Filed: October 30, 2019]
No. 2298
September Term, 2017
LLOYD HARRIS
v.
STATE OF MARYLAND
Circuit Court for Frederick County
Case No.: 10-K-16-057851
Berger,
Leahy,
Battaglia, Lynne, A.
(Senior Judge, Specially Assigned),
JJ.
Opinion by Battaglia, J.
On October 2, 1996, the victim, then a 15-year old
girl, was reported missing by her mother. Over two
months later, her body was discovered in a wooded
area of Frederick, Maryland. Prior to the discovery of
the victim’s body, appellant, Lloyd Harris, had resided at a “campsite” nearby in the wooded area, and,
during the course of the investigation into the victim’s death, became the primary suspect. The investigation largely concluded in 2000.
On January 22, 2016, a grand jury indicted Harris of first-degree murder, first- degree rape and

3a
third-degree sex offense, charges for which he was
convicted by a jury sitting in the Circuit Court for
Frederick County. The trial judge sentenced Harris
to life in prison for the murder and rape convictions,
which were to run concurrently, and merged, for sentencing purposes, the sex offense conviction. The issues in this case involve an alternative suspect, preindictment delay and expert testimony, as queued up
by Harris in the following questions, which we have
renumbered:
1. Did the trial court err when it granted the
State’s motion to exclude defense evidence regarding an alternate suspect?
2. Did the trial court err when it denied Mr. Harris’s motion to dismiss due to pre-indictment
delay?
3. Did the trial court err when it denied Mr. Harris’s motion to exclude the testimony of the
State’s expert regarding acid phosphatase and
“time since intercourse” on Frye-Reed grounds?
For the reasons set forth below, we shall answer
Harris’s questions in the negative and shall affirm
the judgment of the Circuit Court.
ALTERNATIVE SUSPECT
Before trial, the State filed a motion in limine
to exclude evidence related to individuals who
Harris contended were alternative suspects in the
case. One of those individuals was Elmer Spencer,
who had been convicted of first-degree assault in
connection with an attempted rape which took place
in Frederick, Maryland on October 9, 1996, days after the victim went missing. Harris had informed the
State that he intended to introduce evidence relat-

4a
ed to Spencer’s assault conviction to bolster the
theory that Spencer was an alternative suspect:

• Call Michael Hansell to testify about his arrest of Elmer Spencer on October 9, 1996;

• Call the woman, who was assaulted, to testify that Elmer Spencer had attacked her on
October 9, 19961;

• Introduce the police report in State v. Elmer
Spencer, Frederick County Circuit Court Case
No. K-96-021289;

• Introduce a Frederick News-Post article dated

December 28, 2000 regarding Elmer Spencer
as a potential suspect in the rape and murder
of the victim; and,

• Introduce a true test copy of Circuit Court
Case K-96-021289, State v. Elmer Spencer.

The trial judge subsequently held a hearing on
the issue and orally granted the State’s motion to
exclude, but reserved Harris’s ability to crossexamine the State’s witnesses about information
regarding potential suspects that was developed
during the course of the investigation. The State,
then, would be able to introduce evidence as to why
those suspects had been excluded as potential suspects.
During trial, before the testimony of Candace
Mercer, a childhood friend of the victim, the State
again orally moved to exclude testimony from Ms.
Mercer regarding her having allegedly seen the vicAt the time of trial, both Elmer Spencer and the woman he had
attacked had died.

1

5a
tim and Spencer together shortly before her disappearance. Harris proffered that Ms. Mercer, when
interviewed in either late 2016 or early 2017 by defense counsel, indicated that she may have seen
Spencer in the victim’s “neighborhood right around
the time she disappeared.” The State disagreed, contending that Ms. Mercer informed prosecutors that
she “had no idea” when she had seen the victim with
Spencer.
Both defense counsel and the prosecutor, however,
also informed the trial judge that Ms. Mercer had
never mentioned Spencer to the police during the
initial investigation, proffering a two-page police report of her interview conducted in 1996 in which no
mention was made of Spencer. The trial judge granted the State’s motion to exclude the testimony, reasoning that, because Ms. Mercer never told anyone
that she had seen the victim and Spencer together
in October 1996, a statement elicited twenty-one
years later was “too far removed”:
The first time that [Spencer] comes up is
21 years afterwards. She says, yes, she
thinks she saw him about that time, and
now she’s expected to testify that she
doesn’t. I think it’s too far removed. If
there was any mention whatsoever [sic]
in the report of Mr. Spencer back at that
time, I may have let her testify to that;
there’s not.
Furthermore, the State also sought to exclude
testimony from Thomas Chase, the former head of
the Criminal Investigation Division of the Frederick City Police Department, recounting the statement he made to a local newspaper in which he said

6a
that Spencer could not be ruled out as a suspect in the
rape and murder of the victim. 2 The trial judge denied the State’s motion, and Mr. Chase later read
his statement to the jury. Mr. Chase, however, testified that he did not believe Spencer to ever be a suspect, and that if he had “not gotten” the call from the
reporter, he “wouldn’t have thought of Spencer” as a
suspect; his goal was merely to provide “[t]ruthful information.”
Harris contends that the evidence regarding
Elmer Spencer “was not speculative or remote” because it tended to demonstrate that Spencer raped
and murdered the victim, and as such, the trial court
committed reversible error when it granted the
State’s motion in limine.3 Harris avers that the evidence related to Spencer did more than “cast a
bare suspicion” of his culpability because the acts underlying Spencer’s assault conviction were similar to
the acts underlying the charges with which Harris
had faced, both incidents occurred in Frederick
around the same time and Spencer had an opportunity to commit the crime because he was not incarcerated at the time of the victim’s disappearance.
When asked by a reporter from the Frederick News-Post
whether “there’s any connection between Elmer Spencer and
the [victim’s] case,” Thomas Chase stated:
The issue is being taken into account, and is being given
serious consideration. Given the best information we
have, Spencer was not in jail at the time [the victim]
was reported missing, and he was arrested on October
8th for the assault of another Frederick woman. That’s
all I can say. We have developed suspects. We are not
ruling out any possibilities.
3 We review the trial court’s decision to exclude evidence for an
abuse of discretion, not, as Harris posits, under a de novo
standard.
2

7a
The State, conversely, argues that the trial
court did not abuse its discretion in excluding the
evidence regarding Spencer because the evidence
was irrelevant as it “supported only a conjectural
inference that Spencer committed the crime for which
Harris was on trial, and even if minimally relevant,
its significant potential for unfair prejudice warranted exclusion under Maryland Rule 5-403.”
“Although the right of a defendant in a criminal
trial to present witnesses in his defense is a critical
right, it is not absolute.” Taneja v. State, 231 Md.
App. 1, 10 (2016), cert. denied, 452 Md. 549 (2017)
(citing Taylor v. Illinois, 484 U.S. 400, 407–10, 108
S. Ct. 646, 98 L.Ed.2d 798 (1988)). The accused
may not offer testimony that is “incompetent, privileged, or otherwise inadmissible under standard rules
of evidence.” Id. (quoting Taylor, 484 U.S. at 410,
108 S. Ct. 646, 98 L.Ed.2d 798). The admissibility of
“evidence that someone other than the defendant
committed other crimes or bad acts,” Allen v. State,
440 Md. 643, 664 (2014) (internal citation omitted), is
“subject, however, to two paramount rules of evidence, embodied both in case law and in Maryland
Rules 5-402 and 5-403,” Smith v. State, 371 Md. 496,
504 (2002); Muhammad v. State, 177 Md. App. 188,
274 (2007).
“Relevant evidence” is evidence “having any tendency to make the existence of any fact that is of consequence to the determination of the action more
probable or less probable than it would be without
the evidence.” Md. Rule 5-401. “[A]n item of evidence
can be relevant only when, through proper analysis
and reasoning, it is related logically to a matter at issue in the case, i.e., one that is properly provable in
the case.” Taneja, 231 Md. App. at 11 (emphasis in

8a
original) (quoting Snyder v. State, 361 Md. 580, 591
(2000)). Relevant evidence is admissible, while evidence that is not relevant is not admissible. Md.
Rule 5-402. Although relevant, a trial judge may
exclude evidence “if its probative value is substantially outweighed by the danger of unfair prejudice,
confusion of the issues, or misleading the jury, or
by considerations of undue delay, waste of time,
or needless presentation of cumulative evidence.”
Md. Rule 5-403.
To establish the evidentiary relevance of crimes
committed by another, a defendant “must show that
‘the proffered evidence exculpates the defendant or
gives credence to the theory that someone else other
than the defendant committed the crime.’” Allen, 440
Md. at 665 n.16 (citing Moore v. State, 154 Md. App.
578, 603–04 (2004), aff’d, 390 Md. 343 (2005)). If relevant, the proffered evidence must also, then, pass
the Rule 5-403 balancing test—“that is, its probative
value must not be outweighed by the danger of unfair prejudice.” Id. at 665. An accused may “introduce any legal evidence tending to prove that another person may have committed the crime with
which the defendant is charged,” but, such evidence
“may be excluded where it does not sufficiently connect
the other person to the crime, as, for example, where
the evidence is speculative or remote, or does not tend
to prove or disprove a material fact in issue at the
defendant’s trial.” Holmes v. South Carolina, 547
U.S. 319, 327, 126 S. Ct. 1727, 164 L.Ed.2d 503
(2006) (quoting 40A Am. Jur.2d, Homicide § 286, pp.
136–38 (1999)); see also Taneja, 231 Md. App. at 10–
11. We review a trial court’s decision to exclude evidence of another’s prior bad acts for an abuse of discretion. Moore v. State, 390 Md. 343, 384 (2005).

9a
In Allen v. State, supra, 440 Md. at 676–77,
the Court of Appeals held that a defendant’s constitutional right to present a fair defense at trial had
not been violated when the trial judge excluded evidence regarding an alternative suspect which included the suspect’s DNA being found at the scene of
the crime for which Allen had been charged, as well
as the suspect’s recent guilty plea to a similar “home
invasion drug-rip style robbery” committed in the
same county. The Court agreed with this Court
when we held that the prejudicial effect of the DNA
evidence and the alternative suspect’s recent conviction of an allegedly-similar crime outweighed any
slight probative value regarding the alternative suspect’s alleged involvement in the crimes for which
the defendant was on trial. Id. at 665. According
to the Court, admission of the DNA evidence would
have resulted in a mini-trial, because the State
would have used gang evidence and evidence of robbery kits to rebut the inference that the alternative
suspect had committed the robbery and assaults at
issue, which would have misled and confused the jury, running afoul of Rule 5-403. Id.
In Taneja v. State, supra, 231 Md. App. 1, we
held that the trial judge properly exercised his discretion in excluding evidence, which Taneja sought
to introduce, that another individual murdered the
victim. At trial, Taneja sought to insinuate that his
wife’s son had committed the murder for which he had
been charged by questioning the son about:
the replevin lawsuit he brought against
[the victim] in 2010, a statement he
made about her around that time that
“someone should kill that b[itch]”; living
in the area where [the victim] was

10a
murdered; being familiar with weapons;
selling Taneja’s Germantown home after
he was given power of attorney following
Taneja’s arrest; and a statement he made
to Taneja in late 2011 or early 2012 that
Taneja should go to a shooting range.
Id. at 18. The trial judge excluded the proffered testimony on the ground that it would not “make more
probative the defense in this case, that [Taneja] was
not directly involved in” the criminal activity for
which he was being prosecuted. Id. at 16–17.
In affirming the decision of the circuit court, we
agreed that the proffered testimony “would have
been, at best, only tangentially relevant and had
a high probability of confusing, distracting, and
misleading the jury.” Id. at 18. We concluded that the
evidence Taneja sought to introduce was “disconnected and remote” with “no other effect than to
raise the barest of suspicion” that Taneja’s stepson
might have murdered the victim. Id.
In the instant matter, the evidence regarding
Spencer, specifically the testimony of the officer
who arrested him, the police report resulting
from the investigation into Spencer’s assault
charge, the news article identifying Spencer as a potential suspect, and a true test copy of his circuit
court case did not give “credence to the theory that
someone else other than [Harris] committed the
crime.” Allen, 440 Md. at 665 n.16.
The judge also properly precluded Ms. Mercer
from testifying at trial that she may have seen Spencer and the victim together around the time of the
disappearance, which she had not reported in 1996.
The judge, however, had permitted Harris to raise

11a
the issue of an alternative suspect by questioning
law enforcement witnesses about other potential
suspects in the case. The trial judge’s decisions were
based on a sound use of his discretion.
PRE-INDICTMENT DELAY
Harris next challenges the twenty-year delay between the discovery of the victim’s body and his indictment, contending that his due process rights were
violated by the State.
Prior to trial, Harris filed a Motion to Dismiss Due
to Pre-Indictment Delay. During the hearing on the
matter, Harris argued that he had been prejudiced by
the delay, because certain witnesses were no longer
available to testify and items of evidence allegedly
no longer existed:

• James Sexton, deceased, “was a reasonable

suspect in the investigation, and [investigators] also took his DNA for comparison against
the victim, and things like that. . . . [T]here’s
information that he had contact with my client, and talked to him, and told him he was
going to take portions of his camp, which is
where the body was recovered”;

• Rose Lanzetta, deceased, a forensic analyst

who “analyzed the blanket that was found
covering the body in this case. In her review
of the blanket, she discovered hairs, and she
reviewed those hairs and compared them . . . .
The hairs were not a match with Mr. Harris. . . . [H]er testimony or her lack thereof
her testimony is, there’s an impossibility of us
to present that exculpatory information to the

12a
jury because she is no longer able to be a witness”;

• Corinne Winters, currently residing in London,

and a friend of the victim, told detectives that
she had seen the victim the day after she disappeared;

• Jamie Hurst, also purportedly saw the victim

after she disappeared, but who defense counsel added, “I don’t know if she’s available or
not”;

•

“[L]ost or destroyed” recordings of police interviews, including “at least one of Mr. Harris’s interview and then one of, one interview of [the victim’s] brother,” about which
defense counsel proffered, “I would imagine
there are others”; and,

• A “body wire recording during another inter-

view of Mr. Harris; that there was video surveillance of Mr. Harris during one of the interviews in 1998. And none of those are in existence.” Defense counsel asserted, “[w]e’ve
asked for them and I believe the State has
looked for them, but regardless, they’re no
longer in existence. They don’t possess them.”

Defense counsel continued to explain the significance of the missing material:
Rest assured, Your Honor, I believe if
there was, if it was, you know, helpful to
them, they would have it. But they, you
know, I mean, there’s a memorialization
of what [Harris] said, that I would say
the negative things that he said. Those
are all memorialized in the reports.

13a
But if there’s one statement here or there
that he made that could be helpful to us,
it’s probably not in those reports because
it didn’t further their case. And I’m not
saying they’re trying to hide anything,
but I’m saying there’s no way that every single statement he made is memorialized in this.
For example, in 1998 . . . [Harris] was interviewed for six hours and there is a
one-page report by Detective Hutchinson.
Where are the rest of his statements in
those six hours?
If there was a body wire recording, which
there’s reference to that, I don’t know
for sure if there was, that would be
immensely helpful because, as it is, I
have no context of these statements. He
supposedly made all kinds of statements,
and I don’t know what the officer said to
him to get him to say that.
Certainly, [Detective] Hutchinson is going to testify . . . but again, how is, he’s
not going to have independent recollection of what Mr. Harris said or what he
said back in 1998. Because the best recollection of that would be those recordings,
and Your Honor, we don’t have those recordings. And I think whether or not
they’re exculpatory or helpful to us, we’re
still entitled to them, and it’s so prejudicial that we don’t have access to them.
And that begs the question, again, Your
Honor, what other evidence has been

14a
lost? If they, I mean, they knew that
they were pursuing this case as a cold
case, they were working on it, they knew
it was, they were hoping, I guess, it was
going to go to trial at some point, and
they’ve lost these recordings. What else
has been lost?
***
The next thing that I would touch on
would be faded memories here; that is,
what witnesses do not remember, 20
years later, what happened on October
1st or December 1996.
The trial judge then noted that the State would be
faced with similar issues regarding “faded memories,”
to which defense counsel again argued that it was his
client solely being prejudiced by the delay. Counsel
for Harris also posited that there had been an “issue
of talking to witnesses where a lot of them don’t
want to recall necessarily what happened.” She continued, further explaining the prejudice Harris faced
by the delay, particularly the difficulty in procuring
an alibi:
One other thing is the lack of ability to
procure an alibi for my client. As far as I
know, they never really looked into his alibi. They knew he wasn’t working, but
they don’t know what he did that day.
There’s no reference anywhere in any reports as to what he did that day.
And now, 20 years later—he was never
charged—so 20 years later, his ability to
recall what he did on October 1st of

15a
1996, nothing. There’s literally nothing
there that he can recall in specificity.
Lastly, counsel for Harris argued about the scientific evidence in the case:
[O]ne final thing in regards to the prejudice will be this acid phosphatase testing results that we, that I mentioned in
there. Those results, in an e-mail from
the State, indicate that they were destroyed, they would have been destroyed
three years after the, I guess, the test
would have been done.
And we have the one-page results which
has some number. And based on that, we
can’t conduct any sort of independent review of that with our expert because he
doesn’t have any of the underlying data,
the controls. I mean, he can’t even surmise what, you know, measurement
they used because the information’s not
there. The controls aren’t there and we
can’t do anything with that.
Defense counsel, acknowledging, pursuant to
Clark v. State, 364 Md. 611 (2001), that Harris
would have to demonstrate both “substantial prejudice” and that the delay to indict “was the product
of a deliberate act by the government designed to
gain a tactical advantage,” began to explain how the
State acted to gain such a tactical advantage:
And moving on to the second prong would
be that the State acted to gain a tactical
advantage. As I noted in my motion, . . .
[i]t’s extremely difficult to prove that.

16a
Without some kind of e-mail or something, we don’t have the, you know, the
specific thing that says, yeah, they waited
to charge him.
But what we do have is all of these other
things, and that would be that they could
have—and I understand the State saying
they didn’t have to charge him when they
had probable cause, I absolutely agree
with that—but they could have charged
him years ago because of all this other
prejudice that has now developed.
She then posited that, in the typical situation involving a cold case, a subsequent indictment ensues when
a “smoking gun” is found or the case is otherwise
“cracked,” such as a “DNA hit” or other new evidence, which, she averred, did not exist here.
Counsel for Harris concluded by positing that dismissal was required because, although she could not
directly prove purposeful delay, the circumstances
surrounding the lack of prosecution demonstrated a
lack of diligence which severely harmed Harris:
Your Honor, at best here, we have a lack of
diligence in charging him sooner. At
worst, we have the State purposefully acting to gain a tactical advantage. Again,
it’s difficult for us to show that, but I
think all of the inferences here can lead
to only that conclusion; that he, they
wanted to benefit from their delay.
There’s no other way to come to that conclusion.
The State, initially, responded by stating that
“there is no prejudice with regard, and surprisingly

17a
none after 20 years, with regard to this case, and
that there’s certainly no[] purposeful tactical advantage with regard to the State.” The prosecutor
then began to address the points of prejudice raised
by Harris:
There’s reference of a body wire tape that
Detective Hutchinson had on him during
the six-hour interview [with Harris] in
1998. I was one of the people that was
able to hear that tape.
And for those of us who did cases back
then, it, you know, it’s a wire underneath
clothes, it’s, you know, you can hear
Detective Hutchinson, barely hear the
defendant. Every time somebody moves,
there’s scratching on the tape. Quite
frankly, I think the quality wouldn’t have
been one that would have been admitted
anyway.
But notwithstanding that, something on
that tape was, if I did it, it was an accident. Losing that tape, I don’t know how
that would benefit the State, and certainly, I don’t know how that would prejudice
the defendant.
The prosecutor proceeded to address the specific
witnesses that counsel for Harris identified as no
longer being available to testify at trial, noting
the lack of prejudice resulting from their unavailability:

• James Sexton, although deceased, had indicated to investigators that he had not resided

18a
in the wooded area in which the victim’s body
was found since the Summer of 1996;

• The hairs which Rose Lanzetta had analyzed

had been offered to defense counsel for independent testing, but, as the prosecutor noted,
defense counsel had not “taken us up on that”;

• The State would look into ways in which
Corinne Winter’s testimony could be obtained;

• Jamie Hurst “has been subpoenaed . . . She’s
coming. So I think that’s moot at this point”;
and,

• John Ramsey had always been an out-ofstate witness, as he worked at a carnival
that came through Frederick some time before the victim’s disappearance.

As to Harris’s alibi, the prosecutor contended
that, because Harris had been interviewed as a suspect in the rape and murder of the victim on multiple
occasions, he had reason to provide an alibi, which
investigators could then check, but he had not provided one.
With respect to the scientific evidence, the State
responded:
With regard to the acid phosphatase
test, it wouldn’t have made a difference
in 2000 because they destroy them every
three years. And what they’re asking for
is something that’s not demanded for in
discovery with regard to this type of test.
They’re asking for, like the instrument
tests and the protocol. They got the protocol, but the actual instrument, the lev-

19a
el—I can only compare it to what we do to
DNA, which is sort of all of those, you
know what I’m talking about.
***
And, but we do have the doctor who was
there, who will testify to the levels. But
with regard to this type of test as compared to DNA, those types of things are
not discoverable.
Lastly, the State contended that only “actual
prosecutorial misconduct rather than mere negligence” would satisfy the second Clark prong, whether
the State stood to gain a tactical advantage in delaying the indictment. She further posited that, the
State, did in fact have new evidence; although it
may not be a “smoking gun” as defense counsel posited would be necessary to overcome the delay in indictment, the State, nonetheless, possessed new evidence. The State, however, contended that possession of new evidence was not required to insulate its
decision to delay indictment from dismissal. 4
The trial judge ultimately found that, although
Harris may have been prejudiced by the delay, he
had failed to prove that the State purposefully
After being asked by the trial judge what new evidence the
State possessed, the prosecutor stated that, among other
things, “at a minimum, we have a statement from the defendant where he all but says he did it. In fact, he says he did it, but
he doesn’t remember doing it. So at a minimum, there’s a new
statement from the defendant.” The prosecutor assured the
court that it did not possess any evidence which it was required
to disclose to the defense. The prosecutor also indicated that
the crux of the decision to prosecute now resulted from a reevaluation by “fresh eyes” of the evidence already collected.
4

20a
acted to gain a tactical advantage, finding that the
delay was a result of permissible prosecutorial discretion:
First of all, Maryland does not have a
statute prescribing the time in which a
prosecution for a felony must be commenced. That’s – well, how do you prove
a negative? You prove it by citing the
case that cites it, Smallwood v. State, 51
Md. App. 463, 1983 case.
And as the State indicated, Clark v. State
puts forth the two-prong test. Number
one, has the defendant suffered actual
prejudice from the delay; and two, the delay was the result of a purposeful attempt by the state to gain tactical advantage over the defendant.
Regarding the first prong, I think it’s clear
the defendant has suffered some prejudice. I think the State has too. 20 years
is going to make it difficult for both
sides. But the only thing I have to find
is whether the defendant suffered the
prejudice.
But as counsel indicates, it’s difficult to
show that the State, that the delay was a
purposeful attempt by the State to gain a
tactical advantage. And I’ve thought
about this a good bit because, obviously,
this is a very crucial motion for the Defense.
You can see, in certain cases, a speedy
trial case, for instance, where the state

21a
has some problems with their case.
They’ve indicted, they get up close to trial, enter a nolle pros, and then a year or so
later, they indict, getting around the
180-day rule and whathaveyou [sic]. At
that point, that’s a purposeful act to
get around the execution of a particular rule, statute, whathaveyou [sic], to
gain a result.
But here, what we have is, at the time, we
have a police investigation ongoing. It’s
overseen by the State’s Attorney Office.
The State’s Attorney’s Office—what’s
been alleged, because I don’t have any testimony to this, but I have, certainly, in
pleadings and in argument – that the
State’s Attorney’s Office made determinations that they did not want to indict
at particular times.
How often that occurred, I don’t know.
That’s certainly not in anything that’s
been presented, but it certainly was, has
been alluded to, that was made by then
State’s Attorney [] and his . . . head of
the murder division[.]
And that’s prosecutorial discretion, obviously.
And then to say that they did this, now
you have to say that when [the next
State’s Attorney assumed office], he
would have had then to make the same
determination that, no, I’m going to push
this out farther and hope that there’s ad-

22a
ditional prejudice to [Harris], and for, until 20 years come up.
I just don’t think the Defense has met
their burden in showing a purposeful
attempt by the State to gain a tactical advantage at this time.
Now, there are, we’ve danced around
several things in this motion. Counsel’s
hitting very had on several things that,
at least at this time, are speculative. I
suspect that they will be raised later if, in
fact, the speculation becomes actual, as
opposed to there [sic]. And I don’t know.
I may feel differently about it at that
time. But at least at this time, I don’t
believe they’ve met the second prong,
and so I’m going to deny the motion to
dismiss.
In evaluating the decision of the trial court, we
are mindful that due process may require the dismissal of an indictment if it is shown that a preindictment delay caused an accused “actual, substantial prejudice and that the delay was the product
of a deliberate act by the government designed to
gain a tactical advantage.” Clark, 364 Md. at 631
(citing United States v. Marion, 404 U.S. 307, 92 S.
Ct. 455, 30 L.Ed.2d 468 (1971) and United States v.
Lovasco, 431 U.S. 782, 97 S. Ct. 2044, 52 L.Ed.2d 752
(1977)); see also Greene v. State, 237 Md. App. 502,
520 (2018). An accused maintains the burden of establishing both that he or she was prejudiced by the
delay and that the State manipulated the delay to
gain a tactical advantage over the accused. Clark,
364 Md. at 642–43; Greene, 237 Md. App. at 521 (cit-

23a
ing Smallwood v. State, 51 Md. App. 463, 472
(1982)). Prejudice, which results from the passage of
time, could include the impairment of memories, the
loss of evidence, the unavailability of witnesses and
the decreased ability to defend. Clark, 364 Md. at
625–26; Greene, 237 Md. App. at 520. Juxtaposed
against purposeful acts to gain a tactical advantage
are a number of “good-faith and well-reasoned bases”
the State has for a pre-indictment delay, such as the
consolidation of multiple cases into one joint trial
and allowing evidence to adequately develop. Greene,
237 Md. App. at 521 (citing Smallwood, 51 Md. App.
at 465–66).
In the present case, Harris, on appeal, does not
argue that the State purposefully delayed his indictment to gain a tactical advantage over him; he
does contend, however, that the abundance of prejudice resulting from the delay was sufficient to require
dismissal. His assertion, however, fails based upon
his inability to demonstrate that the State deferred to
seek the indictment to gain a tactical advantage, as
required by case law. See Clark, supra, 364 Md.
611; Green, supra, 237 Md. App. 502; Smallwood,
supra, 51 Md. App. 463. Accordingly, we hold that
the trial judge did not err in denying Harris’s motion to dismiss on the basis of a pre-indictment delay.
Nevertheless, Harris posits, citing, United States v.
Lovasco, 431 U.S. 783, 795 n.17, 97 S. Ct. 2044, 52
L.Ed.2d 752 (1977), that a “due process violation
might also be made out upon a showing of prosecutorial delay incurred in reckless disregard of circumstances, known to the prosecution, suggesting that
there existed an appreciable risk that delay would
impair the ability to mount an effective defense.”

24a
Harris, without any citation to any Maryland case, 5
contends that, because the State “amassed no new evidence” between 2000 and 2016, “the only conclusion
that can be drawn from the State’s” delay to indict “is
that it was acting in reckless disregard” of his ability
to mount an effective defense. As such, he advances,
the charges against him should have been dismissed. Harris, however, did not argue this point
before the trial court and will not be allowed to
circumvent the judgment of a trial court.
The test suggested in Lovasco, moreover, has
not been adopted as part of our jurisprudence. In
Clark, 364 Md. at 642 n.21, the Court of Appeals, in
a footnote, stated that “whether the U.S. Supreme
Court intended that a demonstration of recklessness
may be sufficient is unclear.” It is clear that, “[o]ur
obligation is to follow the clear dictates of the Court
of Appeals. Clark set forth a two-part test for assessing pre-indictment delay and gave no indication
that there should be exceptions[.]” Willis v. State,
176 Md. App. 1, 6 (2007) (holding that the test
Harris also does cite United States v. Eight Thousand Eight
Hundred and Fifty Dollars, 461 U.S. 555, 563, 103 S. Ct. 2005,
76 L.Ed.2d 143 (1983) (“As articulated in United States v.
Lovasco[], such claims can prevail only upon a showing that the
Government delayed seeking an indictment in a deliberate attempt to gain an unfair tactical advantage over the defendant
or in reckless disregard of its probable prejudicial impact upon the defendant’s ability to defend against the charges.”) and
Betterman v. Montana, U.S. , 136 S. Ct. 1609, 194 L.Ed.2d 723
(2016) (“Due Process Clause may be violated, for instance, by
prosecutorial delay that is ‘tactical’ or ‘reckless.’” (quoting United States v. Lovasco, 431 U.S. 783, 795 n.17, 97 S. Ct. 2044, 52
L.Ed.2d 752 (1977)), to support his assertion that dismissal of
the indictment is required based upon the State’s “reckless
disregard” in delaying his indictment.
5

25a
adopted by the Court of Appeals in Clark to challenge a pre- indictment delay applied to a challenge of an 18-year pre-indictment delay in theft
prosecution).
EXPERT TESTIMONY
Before trial, counsel for Harris sought to exclude
testimony from the State’s expert, Dr. Stephen Cina,
who would testify that the level of prostatic acid
phosphatase 6 found on the vaginal swabs taken
from the victim allowed him to determine that the
victim had sexual intercourse “within a few hours”
of her death, contradicting Harris’s claim that he
had consensual intercourse with the victim three
days before she went missing. The trial judge ultimately denied Harris’s motion and permitted the
testimony, a decision about which Harris takes issue.
In a motion requesting a Frye-Reed hearing, 7
counsel for Harris argued that, although, “[a]cid
phosphatase testing in and of itself is not the subject of Defendant’s challenge” to the State’s expert
testimony, Harris does take issue with “the conclusion proffered by the State’s expert in regard[] to the
timing of intercourse before her death.” Counsel for
At trial, Dr. Stephen Cina, an expert witness for the State, explained that prostatic acid phosphatase is an enzyme, “specifically glycoprotein,” which “is produced by the prostate and
seminal vesicles” and is found in seminal fluid.
6

Frye-Reed is the test in Maryland for determining whether
expert testimony is admissible. The name is derived from two
cases, Frye v. United States, 293 F. 1013 (D.C. Cir. 1923), where
the standard of general acceptance in the relevant scientific
community was first articulated, and Reed v. State, 283 Md.
374 (1978), where the Court of Appeals adopted the Frye
standard. See Blackwell v. Wyeth, 408 Md. 575, 577 n.1 (2009).
7

26a
Harris contended that the “expert’s conclusions are
not supported by generally accepted methods,” particularly, because the literature in which the State’s
expert used to arrive at his conclusion did “not cite a
study concerning a factually similar cadaver, in that
none of the cadavers in the study were exposed to
the elements for a period of 83 days.” In fact, defense counsel averred, most “of the literature provided relied upon live study subjects or recently
deceased subjects held in a controlled environment[.]” Defense counsel asserted, because the “theory being propounded by the State’s experts presents
a novel medical theory of conclusion not generally
accepted in medical or scientific communities,” the
court was required to conduct a Frye-Reed analysis
to determine the admissibility of the subject of the
expert witness’s testimony.
At the Frye-Reed hearing held before trial, Dr.
Stephen Cina, who had previously conducted autopsies as a fellow in the Office of the Chief Medical Examiner, was accepted as an expert in forensic pathology and testified on behalf of the State. He had
conducted the victim’s autopsy in 1996 during his fellowship at Johns Hopkins University. In advance of
the hearing, he reviewed the autopsy report, which he
co-authored as a fellow; the 2000 amendment to the
autopsy report, which he had not authored, as he was
not with the Office of the Chief Medical Examiner in
2000; the articles that the addendum cited; a lab report which indicated that a sperm head was
found on one of the vaginal swabs; and a temperature chart from October through December of
1996. The 2000 amendment to the autopsy report,
authored by Dr. Stephen Radentz and Dr. John Smialek of the Office of the Chief Medical Examiner,

27a
which is of importance to the instant appeal and
formed the basis of Dr. Cina’s conclusion, stated:
Based on the evaluation of the acid
phosphatase activity on vaginal swabs
taken at the time of autopsy and a review
of current literature, the deposition of
seminal fluid occurred very close to or at
the time of death of the decedent. The acid phosphatase activity level of 430 U/L
could not be attributed to sexual intercourse 48 hours prior to her death. Studies involving volunteers (living patients)
revealed that elevated acid phosphatase
activity due to seminal deposition (sexual
intercourse) is generally not detectable after 24 to 36 hours.
Dr. Cina testified that he agreed with the amendment’s statement, positing further that “the literature that has come out since then hasn’t done anything to refute that.” He advanced the notion that
sexual intercourse with the victim occurred shortly
before her death based upon, what he considered, to
be a high level of acid phosphatase collected from her
vaginal cavity:
Well, I mean acid phosphatase if it is at a
high level in most studies they will say
that it correlates with a recent sexual activity. If you have a high level of acid
phosphatase which is a major component
of seminal fluid plus sperm you know
you have dealt with an ejaculate in
that body cavity. And it happened recently.

28a
He further explained the basis for his theory:
Well, in a living person acid phosphatase
will break down. Certainly higher in the
first few hours after sexual activity. It
starts dropping 12 hours, 24 hours dropping and a lot of studies by 48 hours it is
virtually gone or not detectible. So it is a
fairly short lived substance in the vagina
of a living person. Most people would say
sperm sticks around a little bit longer
than acid phosphatase but there are a
few outlier studies that will say that
sperm can go way before that.
But if you see the two together in medicine we are taught if you hear hoof beats
don’t look for zebras. Look for the horse.
So in a case where the circumstances
suggest a sexually related crime you have
a sperm head in the vagina and you have
an elevated acid phosphatase level a medical diagnosis would be that there is seminal fluid that was deposited recently in the
vagina.
Dr. Cina then addressed what levels of acid phosphatase correlate with recent sexual activity:
I mean studies vary as to what a normal
vaginal acid phosphatase level is. I’ve
seen it as low as 8 or 10 units per liter.
In some of the forensic literature in looking after coitus they would consider a
level of either 50 or 100 to be indicative
that recent sexual activity had occurred.
In one study, Dr. Smialek, the chief
[medical examiner], was involved in I be-

29a
lieve every case over 400 [units per liter]
proved to have seminal fluid in it. In this
case, we’re looking at a level of 430 so it
exceeds the threshold for many of the
papers that I’ve read that seminal fluid
should be present.
Dr. Cina also cited the “Dahlke” study 8 to
support his opinion regarding the correlation between the presence of acid phosphatase and recent
sexual activity. The study found that, after an alleged rape, “[t]he acid phosphatase value was more
than 50 units [per liter] in 87% of the patients seen
within six hours, in 60% of the patients seen between
six and 12 hours, and in 40% of those seen between
12.5 and 18 hours.” The study further found that a
“high acid phosphatase value was not found after
18 hours[.]” Dr. Cina explained that the study revealed that acid phosphatase values above 300
units per liter were found in patients examined within eight hours of the reported rape; whereas, samples
from a control group of woman who had no intercourse within forty-eight hours showed a mean acid
phosphatase value of eight units per liter and none
“had values of more than 50 [units per liter].”
Dr. Cina also agreed with the findings of another study9 that “quantitative [acid phosphatase] levels can be used as a time since intercourse marker,”
and that the average “decay” of acid phosphatase,
the time in which 50% of the tests become negative
Miriam B. Dahlke, et al., Identification of Semen in 500 Patients Seen Because of Rape, A.J.C.P., Dec. 1977.
9 Lawrence R. Ricci, et al., Prostatic Acid Phosphatase and Sperm
in the Post-Coital Vagina, Annals of Emergency Medicine 11:10,
Oct. 1982.
8

30a
for the chemical, was thirty-two hours. He also endorsed the conclusion of the study’s article which
stated that “the limited survival of [acid phosphatase] in the female genital tract is useful because it
is easy to state whether intercourse did occur within
a certain period of time and that [acid phosphatase] was not merely persistent from previous consenting intercourse.”
Dr. Cina, acknowledging that the studies on which
he relied involved people above ground, explained
why seminal fluid deposited in the body “on or about
the time of death” resulted in high levels of acid
phosphatase beyond forty-eight hours:
Well, you think [acid phosphatase]
would stick around longer for two reasons. Number one, the physiological
processes that break down the enzymes
they stop working just like they do everywhere else. So that would keep your acid
phosphatase around.
***
It would keep the level higher because it
wouldn’t dissipate and it wouldn’t get
broken down. The other thing is if you
are dead you are not moving around and
you are not engaging in physical activity. So any physical leakage would not
happen. It would just sit there. So provided the body was cold enough the seminal
fluid could stick around for quite a long
time.
When asked if “the idea that these substances in
the body at the time of death will stick around” is “a

31a
new or novel concept,” Dr. Cina responded “[n]o. For
example, going back to the gastric contents. People
know gastric contents stick around in the stomach of
a dead person for hundreds of years. The fact that
physiological processes stop when you are dead has
been known for hundreds of years.”
On cross-examination, at the hearing and at trial, when asked if decomposition of the victim’s body
could have accounted for the high level of acid phosphatase, Dr. Cina admitted that it might, but further
explained that because there was “a very low level in
the rectum, and nothing in the oral cavity really
suggests that you do have semen deposit in the
vagina. If you want to say that, well, all of this was
produced by bacteria after death and decomposition,
you’d expect to see elevated levels everywhere.” He
also stated that he was not aware of any studies
which analyzed acid phosphatase levels of a person
who had been deceased for three months, such that
he could not rule out that decomposition may have
affected the level to “some degree,” but noted that “as
I have stated before in the setting of a naked girl who
is bound in a secluded area with sperm present in the
vagina the natural medical conclusion is that the acid phosphatase is from seminal fluid.”
At the conclusion of Dr. Cina’s testimony, the defense called Dr. Karl Reich, the chief science officer
at Independent Forensics, a forensic DNA laboratory in Lombard, Illinois, who was accepted as an expert in acid phosphatase, microbiology and molecular
biology. Dr. Reich testified that, although screening
for acid phosphatase is a method in which to detect
semen in a rape victim, it is impossible to determine the time since intercourse based upon acid
phosphatase levels. He contended that Dr. Cina’s

32a
conclusion to the contrary “is unsupported by relevant experiments and is unsupported by any actual
biochemical enzymic analysis from cadavers.” Accordingly, in Dr. Reich’s opinion, there is no marker,
no laboratory test that will provide the time since
intercourse, nonetheless, by measurement of acid
phosphatase levels. In so concluding, Dr. Reich cited
an article, entitled “A Critical Appraisal of the Value
of Vaginal Acid Phosphatase Determination for the
Estimation of Post Coital Time,” 10 from a Brazilian
medical journal which reviewed 200 sexual assault
cases. The authors of the article applied a “very
simple mathematical analysis” to conclude that no
correlation between acid phosphatase levels and the
time since intercourse existed, a paper which Dr.
Reich stated was “fully in line with the modern literature on this topic.”
Dr. Reich also testified that acid phosphatase,
albeit, generally associated with seminal fluid, may
also be produced by bacteria and fungi. As such,
Dr. Reich, in his report, explained that decomposing
cadavers often produce large amounts of bacteria and
fungi. He also noted that none of the studies on
which Dr. Cina relied analyzed cadavers that had
been left in the open, nor did they consider other factors which contribute to the existence of acid phosphatase or the physiological variation of the amount
of seminal fluid produced by men.
Dr. Reich also took issue with the size of the
sample collected from the victim, positing that it
Affonso Renato Meira, et al., A Critical Appraisal of the Value of Vaginal Acid Phosphatase Determination of the Estimation
of Post-Coital Time, Rev. Paul Med. 110(4), at 173–76, Jul./Aug.
1992.
10

33a
was “completely unknown and undeterminate”: “Collect more semen on the swab and the test is likely
more positive, collect less (or miss the semen altogether) and the tests will appear weaker or negative.” Dr. Reich posited that none of the reports cited
by Dr. Cina addressed this concern of his either.
Following the hearing, the motions judge denied defense counsel’s motion to exclude evidence
regarding prostatic acid phosphatase and the timing of intercourse, finding Dr. Cina’s opinion to be
based on generally accepted methodology within
the relevant scientific community:
All right, a hearing was held in this
matter on June 27th when defendant’s
motion in limine to disallow the testimony
of Dr. Stephen Cina, who is an expert
named by the State as it relates to an estimate of time prior to death that sexual
intercourse occurred. It is only this opinion that formed the basis for the defense
motion and objection.
***
[P]ursuant to Re[e]d v. State, the primary question presented by the motion in
limine is can the State support the
opinion of Dr. Cina that intercourse
took place within six to twelve hours or at
least within 36 hours prior to death,
with science that utilizes methods and
theories that are generally accepted in
relevant disciplines. Dr. Cina testified
that he is an M.D., a forensic pathologist
who has performed close to 7,000 autopsies. When queries as to whether he was

34a
a scientist, he stated he would describe
himself as combining science and the art
of practicing medicine.
In so doing, during his examination, and
autopsy, he noted that the victim was
found unclothed and bound at the crime
scene. He was then looking for during
his autopsy, number one, sperm; and
number two, acid phosphatase. He rendered a medical opinion based upon these
factors that placed the time of intercourse
relative to the time of death.
He was not the first to do so. Dr. John
Smialek, chief medical examiner, and Dr.
Stephen Raddance (phonetic sp.), Assistant Chief Medical Examiner, signed an
amendment to the autopsy, amendment
to opinion of the autopsy. This was dated
January 5, 2000, stating that “The deposition of seminal fluid occurred very close to
or at the time of the death of the victim.”
They cited five peer reviewed articles to
support their position regarding acid
phosphatase and its relationship to the issues in this case. A review of these articles reveals that their conclusions are
as the doctors found and relied upon.
Dr. Cina concurred with their opinion
and placed the time at 6 to 12 hours,
based upon the crime scene, the presence
of sperm, and the high level of acid phosphatase. He also testified he saw no genital trauma and he stated he could not re-

35a
call ever testifying prior to this regarding
acid phosphatase.
Dr. Reich testified he is a Ph.D. forensic
scientist. He was most clear and adamant that an opinion as to the time of
intercourse relative to death could not be
opined based upon the acid phosphatase
test alone. He made sweeping statements that the acid phosphatase test
cannot be used for this purpose and that
is not accepted in the forensic scientist
community. He worked hard to get in his
testimony the buzz words of junk science,
which I assume he knew were relevant
from the case law.
He stated that no literature supports this
conclusion and cited a 1992 peer reviewed
article for support. It is important to understand that although two experts both
testified as to acid phosphatase, their respective roles are much broader than
this one area of overlap. Dr. Cina examines the body, considers the circumstances of death, how the body was found, and
performs autopsies. Dr. Reich performs
the tests upon the evidentiary items collected during the investigation and autopsy, albeit he was not the forensic scientist to run tests in this particular case.
The intersection or crossover of experts
consists of only one of Dr. Cina’s conclusions. Dr. Reich cannot opine regarding
the art of medicine employed by Dr. Cina
in coming to his conclusions. Based upon

36a
that alone, I could deny the defendant’s
motion.
However, looking at the acid phosphatase
in particular, the question remains based
upon Dr. Reich’s testimony, can Dr. Cina
refer to it at all in giving his opinion? As
stated before, the amendment to the opinion signed by Dr. Smialek and Raddance
[sic] referred to five articles from the
1970s to support their position. Dr. Reich
referred to the 1992 article from Brazil to
support his, as well as the general
statement that no one supports the
conclusion reached in the 1970s anymore.
There are two problems with this. First
is the 2001 article from Dr. Kim Collins
and Dr. Alan Bennett, which doctors
seemed to testify in support of his position.
This article discusses the relationship between finding sperm and elevated acid
phosphatase in sexual assault cases. It
concludes that this evidence is crucial to
prove sexual assault when the evidence
is retrieved post-mortem.
Also, the conclusion of the Brazil report
is that their findings cast doubt on the
validity of acid phosphatase in the determination of an estimate of post-coital
time of death. This is a far cry from the
words used by Dr. Reich and stated that
acid phosphatase is junk science. In fact,
the Brazil article inferentially states
that the acid phosphatase test in establishing the time of intercourse before

37a
death is the method that is accepted
by the scientific community and it is
their report that casts doubt on whether
it should be.
I have nothing before me which definitively states that the use of acid phosphatase
is not recognized for this purpose. The evidence rather shows that it is. In fact,
extrapolating the conclusions of the
Brazil study, acid phosphatase is recognized in the medical and scientific community as the method of determining the
time of intercourse prior to death. The
fact that the Brazil study was done and
its conclusion is it casts doubt merely
recognizes the status of the test. This
gives rise to the classic case of dueling experts whose opinions need to be argued to
and considered by a jury.
Therefore, I find the State has met its
burden, and I deny defendant’s motion in
limine.
After the close of evidence and before jury deliberation began, the trial judge provided the jury
with an instruction regarding the use of the expert
witness testimonies in the case:
Now, an expert is a witness who has
knowledge, skill, experience, education or
special training in a given field and therefore is permitted express opinions in that
field. You should consider an expert’s testimony together with all of the over evidence.

38a
In weighing the opinion portion of an expert’s testimony in addition to the factors that are relevant to any witness’s
credibility you should consider the expert’s knowledge, skill, experience, training, or education as well as the expert’s
knowledge of the subject matter about
which the expert is expressing an opinion. You should give expert the weight
and value you believe it should have. You
are not required to accept an expert’s testimony even if it is uncontradicted.
As with any other witness, you may believe all, part or none of the testimony of
an expert.
Harris, asserting error, citing Blackwell v. Wyeth, 408 Md. 575 (2009) and its progeny, asks us to
reverse his conviction and to classify Dr. Cina’s conclusion—that the presence of high levels of acid
phosphatase found in the victim’s vaginal cavity indicates that sexual activity occurred within hours
of her death—as “junk science.” Harris’s reliance,
however, is misplaced because, in Blackwell, the
Court of Appeals held that the trial judge did not
abuse his discretion by excluding expert testimony
which failed to bridge the “analytical gap” between
the data relied upon and the ultimate conclusion—that vaccines containing thimerosal were
linked to autism in certain genetically susceptible
individuals. In the present matter, no such analytical
gap exists. The trial judge found that no evidence
was adduced during the Frye-Reed hearing to demonstrate “that the use of acid phosphatase is not recognized for [the] purpose” of determining how close to
death sexual intercourse occurred. He found Dr.

39a
Reich’s testimony, which attempted to negate Dr.
Cina’s conclusion, to be a “far cry” from classifying it
as “junk science,” as the study upon which Dr. Reich
relied “inferentially state[d] that the acid phosphatase test in establishing the time before death is the
method that is accepted by the scientific community,”
although it “cast doubt” on such practice. This is not
a case where, like in Blackwell, the trial judge found
bases to be lacking for the theory that thimerosal
caused autism.
Rather, in the present case, Dr. Cina and Dr.
Reich had been qualified as experts, pursuant to
Maryland Rule 5-702.11 The judge allowed them each
to offer their conflicting conclusions to the jury, resulting in a “classic case of dueling experts whose
opinions need to be argued to and considered by a
jury.” See Roy v. Dackman, 445 Md. 23, 51 n.16
(2015) (stating that an attempt to invalidate the entire basis of an expert’s opinion based upon contrary
studies from the one relied upon by the expert “is
the grist for cross- examination and dueling experts
and for resolution by the relative weight assigned by
the fact-finder.”); Sugarman v. Liles, 460 Md. 396,
413 (2018). The trial judge properly exercised his
discretion in concluding that Dr. Cina’s expert testi11

Maryland Rule 5-702 provides that:
Expert testimony may be admitted, in the form of an
opinion or otherwise, if the court determines that the
testimony will assist the trier of fact to understand the
evidence or to determine a fact in issue. In making
that determination, the court shall determine (1)
whether the witness is qualified as an expert by
knowledge, skill, experience, training, or education, (2)
the appropriateness of the expert testimony on the
particular subject, and (3) whether a sufficient factual
basis exists to support the expert testimony.

40a
mony juxtaposed by Dr. Reich’s expert testimony
provided the grist for the jury to best weigh. See
also United States v. Rodriguez, 581 F.3d 775, 795
(8th Cir. 2009) (holding that questions about the
factual basis for a time-since-intercourse theory,
such as that proffered by Dr. Cina, goes “to credibility, not admissibility”).
Harris, nonetheless, without citation of authority,
avers that, we should only consider Dr. Cina’s testimony at the Frye-Reed hearing, not his testimony at
trial because we are reviewing the trial court’s denial
of his motion to exclude. His contention, however, is
without merit, because, unlike our review of the denial of a motion to suppress evidence, the trial judge
did permit Dr. Cina’s testimony at trial. Further,
our review of the validity of an expert’s testimony is
not limited to the information contained in the record
and should take notice of articles and other publications “which bear on the degree of acceptance by
recognized experts that a particular process has
achieved[,]” as well as judicial opinions on the matter
and the like. See Clemons v. State, 392 Md. 339, 359
(2006) (quoting Wilson v. State, 370 Md. 191, 201
(2002)); State v. Reed, 283 Md. 374, 399 (1978).
JUDGMENT OF THE CIRCUIT COURT FOR
FREDERICK COUNTY AFFIRMED. COSTS TO
BE PAID BY APPELLANT.

41a
APPENDIX C
IN THE CIRCUIT COURT FOR
FREDERICK COUNTY, MARYLAND
STATE OF MARYLAND
v.
LLOYD ARBARD HARRIS,

Criminal No.
10-K-16-057851

Defendant.
MOTIONS HEARING
Frederick, Maryland

February 10, 2017

WHEREUPON, the proceedings in the aboveentitled matter commenced
BEFORE: THE HONORABLE WILLIAM R.
NICKLAS, JR., JUDGE
APPEARANCES:
FOR THE STATE:
NANCI O. HAMM, Esq.
COLLEEN K. SWANSON, Esq.
MICHAEL J. MOORE, Esq.
Frederick County
State’s Attorney’s Office
100 West Patrick Street
Frederick, Maryland 21705
FOR THE DEFENDANT:
MATTHEW J. FRAWLEY, Esq.
ASHLEY L. SENER, Esq.
Office of the Public Defender
100 West Patrick Street
Frederick, Maryland 21703

42a
***
[41] JUDGE’S RULING
First of all, Maryland does not have a statute prescribing the time in which a prosecution for a felony
must be commenced. That’s—well, how do you prove
a negative? You prove it by citing the case that cites
it, Smallwood v. State, 51 Md. App. 463, 1983 case.
And as the State indicated, Clark v. State puts
forth the two-prong test. Number one, has the defendant suffered actual prejudice from the delay; and two,
the delay was the result of a purposeful attempt by
the state to gain tactical advantage over the defendant.
[42] Regarding the first prong, I think it’s clear the
defendant has suffered some prejudice. I think the
State has too. 20 years is going to make it difficult for
both sides. But the only thing I have to find is whether
the defendant suffered the prejudice.
But as counsel indicates, it’s difficult to show that
the State, that the delay was a purposeful attempt by
the State to gain a tactical advantage. And I’ve
thought about this a good bit because, obviously, this
is a very crucial motion for the Defense.
You can see, in certain cases, a speedy trial case,
for instance, where the state has some problems with
their case. They’ve indicted, they get up close to trial,
enter a nolle pros, and then a year or so later, they
indict, getting around the 180-day rule and
whathaveyou. At that point, that’s a purposeful act to
get around the execution of a particular rule, statute,
whathavyou, to gain a result.
But here, what we have is, at the time, we have a
police investigation ongoing. It’s overseen by the

43a
State’s Attorney Office. The State’s Attorney’s Office—what’s been alleged, because I don’t have any
testimony to this, but I have, certainly, in pleadings
and in argument—that the State’s Attorney’s Office
made determinations that they did not want to indict
at particular times.
How often that occurred, I don’t know. That’s [43]
certainly not in anything that’s been presented, but it
certainly was, has been alluded to, that was made by
then State’s Attorney Scott Rolle and his, I think, in
one of the pleadings, had described his Assistant
State’s Attorney Dino Flores as being head of the murder division, or something—
MS. HAMM: Yes.
THE COURT: —I think they had at that time.
MS. HAMM: Yes, Your Honor.
THE COURT: And that’s prosecutorial discretion,
obviously.
And then to say that they did this, now you have
to say that when Charles Smith became a State’s Attorney, he would have had then to make the same determination that, no, I’m going to push this out farther
and hope that there’s additional prejudice to him, and
for, until 20 years come up.
I just don’t think the Defense has met their burden
in showing a purposeful attempt by the State to gain
a tactical advantage at this time.
Now, there are, we’ve danced around several
things in this motion. Counsel’s hitting very hard on
several things that, at least at this time, are speculative. I suspect that they will be raised later if, in fact,
the speculation becomes actual, as opposed to here.

44a
And I don’t know. I may feel differently about it at
that time. But at least at this time, I don’t believe
they’ve met the second prong, and so I’m going [44] to
deny the motion to dismiss.

